Department of Health and Human Services
                  OFFICE OF
             INSPECTOR GENERAL




FAMILY HEALTH CENTERS, INC.,
 2009 RECOVERY ACT GRANT
COSTS WERE SUPPORTED MOST
        OF THE TIME




   Inquiries about this report may be addressed to the Office of Public Affairs at
                            Public.Affairs@oig.hhs.gov.




                                                  Lori S. Pilcher
                                             Regional Inspector General

                                                   September 2012
                                                    A-04-11-07027
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

The Health Centers Consolidation Act of 1996 (P.L. No. 104-299) consolidated the Health
Center Program under section 330 of the Public Health Service Act (42 U.S.C. § 254b). The
Health Center Program provides comprehensive primary health care services to medically
underserved populations through planning and operating grants to health centers. Within the
U.S. Department of Health and Human Services, the Health Resources and Services
Administration (HRSA) administers the program.

The Health Center Program provides grants to nonprofit private or public entities that serve
designated medically underserved populations and areas, as well as vulnerable populations of
migrant and seasonal farm workers, the homeless, and residents of public housing. These grants
are commonly referred to as “section 330 grants.”

Under the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
enacted February 17, 2009, HRSA received $2.5 billion, $2 billion of which was to expand the
Health Center Program by serving more patients, stimulating new jobs, and meeting the expected
increase in demand for primary health care services among the Nation’s uninsured and
underserved populations. HRSA awarded a number of grants using Recovery Act funding in
support of the Health Center Program, including Capital Improvement Program (CIP) and
Increased Demand for Services (IDS) grants.

Family Health Centers, Inc. (FHC), is a nonprofit corporation that operates a network of seven
health centers throughout Louisville, Kentucky. It was established by the Louisville Board of
Health to provide primary and preventive health care and is funded primarily by patient service
revenues and Federal grants.

During fiscal years (FY) 2009 through 2011, HRSA awarded grant funding to FHC totaling
approximately $14 million. Of this amount, HRSA awarded approximately $11.4 million in
section 330 grant funding to supplement FHC health center operations. HRSA awarded the
remaining $2.6 million in FY 2009 under the Recovery Act, which included approximately $1.8
million under a CIP grant to remodel the Louisville-Portland health center and $820,587 under
an IDS grant to increase access and reduce barriers to health care within the Louisville-Portland
service area.

In an era of increased focus on Federal expenditures and their results, it is critical that Federal
agencies ensure that the organizations they fund are positioned to continue meeting program
objectives and providing services. This is even more critical for agencies that fund programs
intended to provide services to medically underserved and vulnerable populations. HRSA uses
guidance detailed in its Bureau of Primary Health Care Policy Information Notice 2002-18
(PIN 2002-18), dated April 30, 2002, in part to evaluate the recovery of Community Health
Centers operating under a financial recovery plan through the use of audited financial statements
to ensure the centers’ financial stability and viability.


                                                 i
FHC must also comply with Federal cost principles in 2 CFR part 230, Cost Principles for Non-
Profit Organizations; the requirements for health centers in 42 U.S.C. § 254(b); and the financial
management system requirements in 45 CFR § 74.21.

OBJECTIVE

Our objective was to determine whether FHC’s grant expenditures were allowable under the
terms of the Recovery Act grants and applicable Federal regulations.

SUMMARY OF FINDINGS

Of the $2,577,477 that we reviewed, FHC claimed expenditures of $1,756,890 for the CIP grant
and $701,440 for the IDS grant that were allowable under the terms of the grants and applicable
Federal regulations. However, we could not determine whether the remaining $119,147 that
FHC charged to its IDS grant as salary and fringe benefit costs was allowable. In claiming these
potentially unallowable expenditures, FHC did not follow its own procedures regarding time-
and-attendance approval.

RECOMMENDATIONS

We recommend that HRSA:

   • either require FHC to refund $119,147 to the Federal Government or work with FHC to
     determine whether any of the $119,147 that it charged to the IDS grant was allowable and

   •    ensure that FHC follows its time-and-attendance approval procedures.

FAMILY HEALTH CENTERS, INC., COMMENTS

In written comments on our draft report, FHC did not concur with the first part of our
recommendation that HRSA require them to refund $119,147 in salary and fringe benefit costs
charged to the IDS grant. FHC stated that, although they did not technically follow their own
time-and-attendance approval procedures during a period of management transition, they
legitimately incurred the cost in accordance with the grant.

FHC agreed with the second part of our first recommendation that HRSA work with it to
determine whether any of the $119,147 in salary charged to the IDS grant is allowable.
Regarding our second recommendation FHC said that it has issued directives to ensure that
employees follow time-and-attendance approval procedures.

OFFICE OF INSPECTOR GENERAL RESPONSE

Although FHC said that it would provide HRSA with documentation and justification to support
the questioned $119,147, FHC did not provide us with any additional information that would
cause us to modify our findings or recommendations.


                                                ii
HEALTH RESOURCES AND SERVICES ADMINISTRATION COMMENTS

In written comments on our draft report, HRSA concurred with our recommendations.




                                            iii
                                                  TABLE OF CONTENTS

                                                                                                                                      Page

INTRODUCTION........................................................................................................................ 1

          BACKGROUND ............................................................................................................... 1
              Health Center Program .......................................................................................... 1
              American Recovery and Reinvestment Act of 2009.............................................. 1
              Family Health Centers, Inc. .................................................................................. 1
              Federal Requirements for Grantees ....................................................................... 2

          OBJECTIVE, SCOPE, AND METHODOLOGY ............................................................. 2
               Objective ................................................................................................................ 2
               Scope ...................................................................................................................... 2
               Methodology .......................................................................................................... 2

FINDINGS AND RECOMMENDATIONS .............................................................................. 3

           GRANT FUNDS NOT ADEQUATELY DOCUMENTED ............................................ 4
               Federal Requirements ........................................................................................... 4
               Expenditures for the Increased Demand for Services Grant ................................. 4

          RECOMMENDATIONS ................................................................................................... 4

          FAMILY HEALTH CENTERS, INC., COMMENTS .......................................................4

          OFFICE OF INSPECTOR GENERAL RESPONSE .........................................................5

          HEALTH RESOURCES AND SERVICES ADMINISTRATION COMMENTS............5

 APPENDIXES

          A: FAMILY HEALTH CENTERS, INC., COMMENTS

          B: HEALTH RESOURCES AND SERVICES ADMINISTRATION
               COMMENTS




                                                                     iv
                                      INTRODUCTION

BACKGROUND

Health Center Program

The Health Centers Consolidation Act of 1996 (P.L. No. 104-299) consolidated the Health
Center Program under section 330 of the Public Health Service Act (42 U.S.C. § 254b). The
Health Center Program provides comprehensive primary health care services to medically
underserved populations through planning and operating grants to health centers. Within the
U.S. Department of Health and Human Services (HHS), the Health Resources and Services
Administration (HRSA) administers the program.

The Health Center Program provides grants to nonprofit private or public entities that serve
designated medically underserved populations and areas, as well as vulnerable populations of
migrant and seasonal farm workers, the homeless, and residents of public housing. These grants
are commonly referred to as “section 330 grants.”

American Recovery and Reinvestment Act of 2009

Under the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
enacted February 17, 2009, HRSA received $2.5 billion, $2 billion of which was to expand the
Health Center Program by serving more patients, stimulating new jobs, and meeting the expected
increase in demand for primary health care services among the Nation’s uninsured and
underserved populations. HRSA awarded a number of grants using Recovery Act funding in
support of the Health Center Program, including Capital Improvement Program (CIP) and
Increased Demand for Services (IDS) grants.

Family Health Centers, Inc.

Family Health Centers, Inc. (FHC), is a nonprofit corporation that operates a network of seven
health centers throughout Louisville, Kentucky. It was established by the Louisville Board of
Health to provide primary and preventive health care and is funded primarily by patient service
revenues and Federal grants.

During fiscal years (FY) 2009 through 2011, HRSA awarded grants to FHC totaling
approximately $14 million. Specifically:

   •   During FYs 2009 through 2011, HRSA awarded to FHC approximately $3.8 million each
       year in section 330 grant funds, for a total of approximately $11.4 million, to supplement
       FHC health center operations.

   •   During FY 2009, HRSA awarded $2.6 million in Recovery Act funds to FHC. Of this
       amount, HRSA awarded approximately $1.8 million to FHC under a CIP grant to
       remodel its Louisville-Portland health center and $820,587 to FHC under an IDS grant to


                                                1
        increase the number of patients provided health care within the Louisville-Portland health
        center service area. 1

Federal Requirements for Grantees

Title 45, part 74, of the Code of Federal Regulations establishes uniform administrative
requirements governing HHS grants and agreements awarded to nonprofit organizations. As a
nonprofit organization in receipt of Federal funds, FHC must comply with Federal cost principles
in 2 CFR part 230, Cost Principles for Non-Profit Organizations (Office of Management and
Budget Circular A-122), incorporated by reference at 45 CFR § 74.27(a). These cost principles
require that grant expenditures submitted for Federal reimbursement be reasonable, allocable,
and otherwise allowable. The HHS awarding agency may include additional requirements that
are considered necessary to attain the award’s objectives.

To help ensure that Federal requirements are met, grantees must maintain financial management
systems in accordance with 45 CFR § 74.21. These systems must provide for accurate, current, and
complete disclosure of the financial results of each HHS-sponsored project or program (45 CFR
§ 74.21(b)(1)) and must ensure that accounting records are supported by source documentation
(45 CFR § 74.21(b)(7)). Grantees also must have written procedures for determining the
allowability of expenditures in accordance with applicable Federal cost principles and the terms and
conditions of the award (45 CFR § 74.21(b)(6)).

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether FHC’s grant expenditures were allowable under the
terms of the Recovery Act grants and applicable Federal regulations.

Scope

We reviewed FHC grant expenditures totaling $2,577,477. Of this amount, FHC charged
$1,756,890 to the CIP grant for the period of June 29, 2009, through June 28, 2011, and
$820,587 to the IDS grants for the period of March 27, 2009, through March 26, 2011.

We performed our fieldwork at FHC’s Portland administrative office in Louisville, Kentucky,
during August 2011.

Methodology

To accomplish our objective, we:

    •   reviewed relevant Federal laws, regulations, and guidance;


1
 The grant budget periods our audit covered were June 29, 2009, through June 28, 2011, for CIP grant funds and
March 27, 2009, through March 26, 2011, for IDS grant funds.

                                                        2
   •   reviewed FHC’s HRSA grant applications and supporting documentation;

   •   interviewed FHC personnel to gain an understanding of FHC’s accounting system,
       internal controls over Federal expenditures, and IDS and CIP grant activities;

   •   reviewed FHC’s procedures on accounting for funds, documenting transactions, contract
       bidding and procurement, withdrawing of Federal funds, and payroll processing;

   •   reviewed FHC’s independent auditor reports, management letters, and related financial
       statements for FYs 2009 and 2010;

   •   reviewed to determine allowability documents supporting payroll expenditures claimed
       under the IDS grant;

   •   reviewed to determine allowability documents supporting materials, labor, and equipment
       expenditures under the CIP grant;

   •   selected and reviewed a judgmental sample of 30 checks totaling $1,575,664 from FHC’s
       CIP grant files to determine whether:

           o the checks were supported by vendors’ invoices and documentation describing the
             products and services purchased for the grants,

           o the products or services related exclusively to the grant, and

           o FHC-authorized officials approved the vendors’ invoices for payment; and

   •   determined that it was not necessary to expand our judgmental sample of 30 checks
       because our review of internal controls and our substantive testing disclosed no control
       weaknesses or improper payments.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                         FINDINGS AND RECOMMENDATIONS

Of the $2,577,477 that we reviewed, FHC claimed expenditures of $1,756,890 for the CIP grant
and $701,440 for the IDS grant that were allowable under the terms of the grants and applicable
Federal regulations. However, we could not determine whether the remaining $119,147 that
FHC charged to its IDS grant as salary and fringe benefit costs was allowable. In claiming these
potentially unallowable expenditures, FHC did not follow its own procedures regarding time-
and-attendance approval.


                                                3
GRANT FUNDS NOT ADEQUATELY DOCUMENTED

Federal Requirements

Pursuant to 2 CFR part 230, Appendix A, § A.2.g., “[t]o be allowable under an award, costs must
... [b]e adequately documented.” Pursuant to 2 CFR part 230, Appendix B, § 8.m (1), charges to
awards for salaries and wages, whether treated as direct or indirect costs, will be based on
documented payrolls approved by the organization’s responsible officials.

Expenditures for the Increased Demand for Services Grant

FHC did not adequately document $119,147 in salary and fringe benefit costs that it charged to
the IDS grant for one physician. Therefore, we could not determine whether the costs were
allowable for Federal reimbursement. Contrary to FHC’s procedures requiring supervisory
approval of the hours employees work on a grant, neither the physician nor FHC’s medical
supervisor had any involvement in preparing, reviewing, or certifying the physician’s time
charged to the IDS grant during the last 10 months of the grant. The salary and fringe benefit
expenditures for the physician were based on time-and-attendance records prepared and
authorized by a medical staff secretary who had no supervisory authority or firsthand knowledge
of the physician’s activities.

This potentially unallowable claim occurred because FHC did not follow its time-and-attendance
approval procedures for determining the hours employees work on a grant.

RECOMMENDATIONS

We recommend that HRSA:

   • either require FHC to refund $119,147 to the Federal Government or work with FHC to
     determine whether any of the $119,147 that it charged to the IDS grant was allowable and

   • ensure that FHC follows its time-and-attendance approval procedures.

FAMILY HEALTH CENTERS, INC., COMMENTS

In written comments on our draft report, FHC did not concur with the first part of our
recommendation that HRSA require them to refund $119,147 in salary and fringe benefit costs
charged to the IDS grant. FHC stated that, although they did not technically follow their own
time-and-attendance approval procedures during a period of management transition, they
legitimately incurred the cost in accordance with the grant.

FHC agreed with the second part of our first recommendation that HRSA work with it to
determine whether any of the $119,147 in salary charged to the IDS grant is allowable.
Regarding our second recommendation FHC said that it has issued directives to ensure that
employees follow time-and-attendance approval procedures.


                                               4
OFFICE OF INSPECTOR GENERAL RESPONSE

Although FHC said that it would provide HRSA with documentation and justification to support
the questioned $119,147, FHC did not provide us with any additional information that would
cause us to modify our findings or recommendations.

HEALTH RESOURCES AND SERVICES ADMINISTRATION COMMENTS

In written comments on our draft report, HRSA concurred with our recommendations.




                                             5
APPENDIXES
                                               -c""-

               APPENDIX A: FAMILY HEALTH CENTERS, INC., COMMENTS

                                                    )­
                          Family Health Centers 
   -

                                                   \oJ




                                      Care (or your Health & WeI/ness



July 2. 2012

Ms. Lori S. Pilcher
Regional Inspector General
  For Audit Services
Office of Audit Services, Region IV
61 Forsyth Street, SW, Suite 3T41
Atlanta, GA 30303

RE: Report Number: A-04-11-07027

Dear Ms. Plicher:

Thank you for providing an opportunity to provide -written comments related to the OIG draft report referenced
above. We have reviewed the audit findings and recommendations and are pleased to note that the vast majority
afthe expenditures were a11mvable under the terms of the Recovery Act grants and applicable federal
regulations.

We do not concur liVith the reconnnendation that Family Health Centers (FHC) refund $119, 147 in salary and
fringe benefit costs that FHC charged to the Increased Demand for Services (IDS) grant. We acknowledge that
we did not teclmica11y follow our O\V1l procedures regarding time-and-attendance approval during a perioo of
management transition. However, we respectfully disagree 'Nith your conclusion that these costs should be
disallowed.

FHC did legitimately incur additional physician salary and fringe benefit costs in order to expand primary care
services to uninsured patients in accordance 'Nith the IDS grant terms and conditions. Therefore, we concur
'Nith your recommendation that HRSA work 'Nith m C to determine whether any of the $119, 147 charged to the
IDS grant is allowable. We look fOflNard to providing HRSA IN.i.th documentation and justification to support
these expenditures.

Finally, as recommended in the report, mc has issued directives to ensure that we follow our time-and­
attendance approval procedures in all circumstances.

Sincerely,

WilliamB. Wagner
                        APPENDIX B: HEALTH RESOURCES AND SERVICES
                              ADMINISTRATION COMMENTS

    -,,~
\~. -:t
( ...      DEPARTMENT OF HEALTH &. HUMAN SERVICES 	                            Health Resources and Services
                                                                               Administration

                                                                               Rockville, MD 20857

                                               AUG 2 j 2012




           TO:          Inspector General

           FROM:        Administrator

           SUBJECT:     CIG Draft Report: "Family Health Centers, Inc., 2009 Recovery Act
                        Grant Costs Were Supported Most of the Time" (A-04-11-07027)

           Attached is the Health Resources and Services Administration's (HRSA) response to
           the OIG's draft report, "Family Health Centers, Inc., 2009 Recovery Act Grant Costs
           Were Supported Most of the Time" (A-04-11-07027). If you have any questions, please
           contact Sandy Seaton in HRSA's Office of Federal Assistance Management at
           (301) 443-2432.




           Attachment
                                                                                    Page 2 of2




  Health Resources and Services Administration's Comments on the OIG Draft Report­ 

     "Family Health Centers, Inc., 2009 Recovery Act Grant Costs Were Supported 

                          Most of the Time" (A-04-11-07027) 


The Health Resources and Services Administration (HRSA) appreciates the opportunity to
respond to the above draft report. HRSA's response to the Office oflnspector General (01G)
draft recommendations are as follows:

OIG Recommendation to HRSA:

We recommend that HRSA either require FHC to refund $119,147 to the Federal Government or
work with FHC to determine whether any of the $119,147 that it charged to the IDS grant was
allowable.

HRSA Response:

HRSA concurs with the OIG recommendation and will work with the grantee to determine if any
American Recovery and Reinvestment Act CARRA) grant funds need to be refunded.

OIG Recommendation to HRSA:

We recommend that HRSA ensure that FHC follows its time-and-attendance approval
procedures.

HRSA Response:

HRSA concurs with the OIG recommendation and will work with the grantee to ensure that
time-and-attendance approval procedures are properly followed.
